                            SOCIAL SECURITY
                                   November 7, 2007


The Honorable Michael J. Astrue
Commissioner

Dear Mr. Astrue:

The Reports Consolidation Act of 2000 (Pub. L. No. 106-531) requires Inspectors
General to provide a summary and assessment of the most serious management and
performance challenges facing Federal agencies and the agencies’ progress in
addressing them. This review is enclosed. As required by the Reports Consolidation
Act, this Statement will be placed in the Social Security Administration’s Fiscal Year
2007 Performance and Accountability Report.

In November 2006, we identified six significant management issues facing the Social
Security Administration for Fiscal Year (FY) 2007.

   • Social Security Number                        • Internal Control Environment
     Protection                                      and Performance Measures
   • Management of the Disability                  • Systems Security and Critical
     Process                                         Infrastructure Protection
   • Improper Payments and                         • Service Delivery and Electronic
     Recovery of Overpayments                        Government

I congratulate you on the progress you have made during FY 2007 in addressing these
challenges. My office will continue to focus on these issues in FY 2008. I look forward
to working with you to continue improving the Agency’s ability to address these
challenges and meet its mission efficiently and effectively. I am providing you with the
Office of the Inspector General’s assessment of these six management challenges.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General




              SOCIAL SECURITY ADMINISTRATION      BALTIMORE MD 21235-0001
 Inspector General Statement
             on the
Social Security Administration’s
Major Management Challenges




         November 2007
           A-02-08-18061
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                   Social Security Number Protection
In Fiscal Year (FY) 2007, the Social Security Administration (SSA) issued approximately
5.7 million original and 11.6 million replacement Social Security number (SSN) cards
and received approximately $620 billion in employment taxes related to earnings under
assigned SSNs. Protecting the SSN and properly posting the wages reported under
SSNs are critical to ensuring eligible individuals receive the full benefits due them.

SSA has taken significant steps over the past several years to improve controls in its
enumeration process. The Agency has made progress in providing greater SSN
protection; nevertheless, incidents of SSN misuse continue to rise. To further
strengthen SSN integrity, we believe SSA should (1) seek legislation to reduce the
allowable circumstances in which entities may require the collection and use of SSNs as
unique identifiers or recordkeeping tools and improve the protection of this information
when obtained, (2) continue to address identified weaknesses in its information security
environment to safeguard SSNs in a better way, and (3) continue to coordinate with
partner agencies to pursue any data sharing agreements that would increase data
integrity.

In May 2007, the Office of Management and Budget (OMB) issued Memorandum
M-07-16 to Federal agencies regarding safeguarding against and responding to
breaches of personally identifiable information (PII), including the establishment and
implementation of plans to eliminate unnecessary collection and use of SSNs. We
believe this is an important step in protecting SSNs in the Federal sector and can serve
as a model for State and local governments, as well as private entities. We are
encouraged that SSA is taking steps to implement this OMB guidance. For further
information on the SSA’s actions to protect PII, see our discussion in the Systems
Security and Critical Infrastructure Protection section of this report.

Maintaining the integrity of the SSN and Social Security programs also involves properly
posting earnings reported under SSNs. Accurate earnings records are used to
determine both the eligibility for Social Security benefits and the amount of those
benefits. The Earnings Suspense File (ESF) is the Agency’s record of annual wage
reports for wage earners whose names and SSNs fail to match SSA’s records. As of
October 2006, the ESF had accumulated approximately 264 million wage items for
Tax Years 1937 through 2004, representing about $586 billion in wages.

While SSA cannot control all of the factors associated with erroneous wage reports,
SSA can continue to improve wage reporting by educating employers on reporting
criteria, identifying and resolving employer reporting problems, and encouraging greater
use of both SSA’s and the Department of Homeland Security’s (DHS) employee
verification programs. SSA can also improve coordination with other Federal agencies
with separate, yet related, mandates. For example, the Agency needs to work with the
Internal Revenue Service to achieve more accurate wage reporting. SSA also needs to
work with DHS to improve controls over employee verification programs. Finally, SSA



IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                          1
will need to coordinate closely with DHS on its recently proposed rule (Safe-Harbor
Procedures for Employers Who Receive a No-Match Letter) requiring employers to take
timely action on SSA no-match letters to avoid liability under immigration laws. The use
of SSA’s employer no-match letter process to assist DHS with its worksite enforcement
mission has led to public concerns from labor advocacy groups and unions regarding
individuals being denied employment inappropriately. In October 2007, a preliminary
injunction was issued preventing the mailing of the letters based on a lawsuit filed by
labor advocacy organizations.

Another area of concern related to SSN integrity is the use of nonwork SSNs by
noncitizens for unauthorized employment in the United States. SSA assigns nonwork
SSNs to noncitizens when (1) a Federal statute or regulation requires that noncitizens
provide an SSN to receive a federally funded benefit to which they have established an
entitlement or (2) a State or local law requires that noncitizens who are legally in the
United States provide an SSN to receive public assistance benefits to which they are
entitled and for which all other requirements have been met. SSA assigns these
individuals SSN cards with a “Not Valid for Employment” annotation. SSA also provides
information about earnings reported under a nonwork SSN to DHS as required by law.
Nonetheless, prior audits have noted several issues related to nonwork SSNs, including
the (1) type of evidence provided to obtain a nonwork SSN, (2) reliability of nonwork
SSN information in SSA’s records, (3) volume of wages reported under nonwork SSNs,
and (4) restrictions on payment of benefits to noncitizens who qualified for their benefits
while working in the United States but lack proper authorization. SSA’s future
accomplishments with nonwork SSNs will require increased coordination with DHS to
ensure SSA has correct work status information.

SSA Has Taken Steps to Address this Challenge
Over the past 5 years, SSA has implemented numerous improvements to its
enumeration process. For example, SSA implemented new systems software, which
field offices are required to use, called the SS-5 Assistant. This program has simplified
the interpretation of, and compliance with, SSA’s complex enumeration policies and,
unlike the traditional process, will not process an SSN request unless SSA staff enters
all of the applicant’s required information. SSA has also established five Social Security
Card Centers that focus exclusively on assigning SSNs and issuing SSN cards—and it
has plans to open more as resources permit.

In addition, SSA has implemented several enhancements designed to protect the SSN
under the Intelligence Reform and Terrorism Prevention Act of 2004 (IRTPA)
(Pub. L. No. 108-458). The enhancements include (1) restricting the issuance of
multiple replacement SSN cards to 3 per year and 10 in a lifetime; (2) requiring
independent verification of any birth record submitted by a U.S. born individual to
establish eligibility for an SSN, other than for purposes of enumeration at birth;
(3) consulting with DHS and other agencies to further improve the security of SSNs and
SSN cards; and (4) strengthening the standards and requirements for citizenship and
identity documents presented with SSN applications to ensure the correct individual


IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                         2
obtains the correct SSN. Additionally, SSA has significantly decreased the number of
nonwork SSNs it assigns to noncitizens as a result of a change in regulations and field
office compliance with procedures to ensure that nonwork SSNs are issued only to
qualified individuals.

SSA has also taken steps to reduce the size and growth of the ESF. In June 2005, the
Agency expanded its voluntary Social Security Number Verification Service (SSNVS) to
all interested employers nationwide. SSNVS allows employers to verify the names and
SSNs of employees before reporting their wages to SSA. During Calendar Year 2006,
SSNVS processed over 49 million verifications for over 13,400 registered employers.

SSA also supports DHS in administering “E-Verify” formerly known as the Basic Pilot
Program, which verifies the names and SSNs of employees as well as their
authorization to work in the United States. The “E-Verify” program is available to
employers nationwide and was recently enhanced to include a Photo Screening Tool
feature, which allows an employer to check the photos of a new hire's Employment
Authorization Document or Permanent Resident Card (“Green Card”) against images
stored in DHS immigration databases. During FY 2006, “E-Verify” processed about
1.7 million verifications for approximately 12,000 employers.

The Agency continues to modify the information it shares with employers. Under
IRTPA, SSA is required to add both death and fraud indicators to the SSN verification
systems for employers, State agencies issuing drivers’ licenses and identity cards, and
other verification routines, as determined appropriate by the Commissioner of Social
Security. SSA added death indicators to those verification routines used by employers
and State agencies on March 6, 2006 and added fraud indicators in August 2007.




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                         3
                 Management of the Disability Process
SSA needs to continue to improve critical parts of the disability process, such as making
timely disability decisions and safeguarding the integrity of its disability programs.
SSA’s disability program has remained on the Government Accountability Office’s
(GAO) high-risk list since 2003 due, in part, to outmoded concepts of disability, lengthy
processing times, and inconsistencies in disability decisions across adjudicative levels
and locations.

At the forefront of congressional and Agency concern is the timeliness of SSA’s
disability decisions at the hearings adjudicative level. The average processing time for
the Office of Disability Adjudication and Review (ODAR), responsible for SSA’s hearings
and appeals programs, continues to increase each FY—from 293 days in FY 2001 to
512 days in FY 2007. In our December 2006 report on Disability Insurance (DI)
payments made during the appeals process, we found that financial performance and
citizen satisfaction of the DI program could be greatly increased if SSA would establish
a business process to allow more timely decisions on medical cessation appeals. In our
March 2007 audit on ODAR’s workload status reports, we reported that we found no
clear link between the Agency’s internal hearings workload benchmarks and the overall
performance goal for the average processing time of a hearing.

ODAR’s pending workload also continues to increase steadily. At the end FY 2007, the
pending workload was 746,744 cases—up from 392,387 cases in FY 2001. We
recently presented SSA with the results of our review on Administrative Law Judges’
(ALJ) Caseload Performance. The review recommended SSA establish a performance
accountability process to address ALJ performance when it falls below an acceptable
level. The recommendation, when implemented by SSA, will assist the Agency in
reducing pending workloads.

SSA Has Taken Steps to Address this Challenge
In August 2006, SSA implemented a Quick Disability Determination (QDD) process
which uses a computer model to identify cases when the individuals are obviously
disabled and are likely to be allowed. The QDD process was successful with Disability
Determination Services (DDS) issuing decisions on 95 percent of cases within the
required timeframe. Based on the results of the QDD process in the Boston region, the
Commissioner of Social Security required DDSs nationwide to implement the QDD
process by March 2008.

In response to our March 2007 audit on ODAR’s workload status reports, the Agency
has developed “guidelines” related to the steps in the hearings process to track the
Agency’s performance goal for average processing time. ODAR has also taken other
steps, such as encouraging hearing offices to view case processing using a weekly
rather than monthly timeframe, to improve office productivity.




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                       4
To address its pending workload, ODAR accelerated and expanded efforts to address
cases that have been waiting 1,000 days or more for a hearing—with the goal of having
these cases to a negligible level by the end of FY 2007. Specifically, at the beginning of
FY 2007, there were about 63,000 cases pending which were or would become over
1,000 days old by the end of the FY. As of end of FY 2007, this pending workload was
reduced to 108 cases.

The Commissioner also recently announced additional initiatives in an effort to reduce
the hearings backlog by FY 2012. Many of these initiatives are either ongoing or
expected to begin within the next few months. The Commissioner’s initiatives include:

   •   Compassionate allowances where SSA plans to build on the success of the
       QDD process by implementing additional initiatives to quickly identify and allow
       applicants who are obviously disabled.

   •   Increased adjudicatory capacity which includes filling hearing dockets of
       current ALJs to capacity by increasing staff overtime, improving ALJ productivity,
       hiring at least 150 ALJs and the necessary accompanying support staff,
       streamlining folder assembly, and using personnel from other SSA components
       to assist the most affected hearing offices.

   •   Using automation and improved business processes such as video
       equipment in all hearings offices, electronic file assembly, electronic scheduling,
       and decision-writing templates to improve case processing at the hearings level.

   •   Opening a National Hearing Center where ALJs in a centralized, fully electronic
       facility will handle electronic files and conduct only video hearings.

We continue to work with the Agency to safeguard the integrity of its disability programs
with the Cooperative Disability Investigations (CDI) program. Under the CDI program,
our Office of Investigations and SSA staff obtain evidence to resolve questions of fraud
in disability claims. Since the program’s inception in FY 1998, the 19 CDI units,
operating in 17 States, have been responsible for over $879 million in projected savings
to SSA’s disability programs and over $539 million in projected savings to non-SSA
programs.




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                            5
      Improper Payments and Recovery of Overpayments
Improper payments are defined as any payment that should not have been made or
was made in an incorrect amount under statutory, contractual, administrative, or other
legally applicable requirements. Examples of improper payments include payments
made to ineligible recipients, duplicate payments, and payments that are for the
incorrect amount. Furthermore, the risk of improper payments increases in programs
with a significant volume of transactions, complex criteria for computing payments, and
an overemphasis on expediting payments.

SSA and the Office of the Inspector General (OIG) have discussed such issues as
detected versus undetected improper payments and avoidable versus unavoidable
overpayments that are outside the Agency's control and a cost of doing business. OMB
issued specific guidance to SSA to include only avoidable overpayments in its improper
payment estimate because those payments can be reduced through changes in
administrative actions. Unavoidable overpayments that result from legal or policy
requirements are not to be included in SSA’s improper payment estimate.

The President and Congress continue to express interest in measuring the universe of
improper payments in the Government. In August 2001, OMB published the President’s
Management Agenda (PMA), which included a governmentwide initiative for improving
financial performance, including reducing improper payments. The Improper Payments
Information Act of 2002 (IPIA) (Pub. L. No. 107-300) was enacted in November 2002,
and OMB issued guidance in May 2003 (OMB Memorandum M-03-13) on implementing
this law. In August 2006, OMB updated and revised this guidance (OMB Memorandum
M-06-23). Significant updates to the guidance include new language to clarify the
definition of an improper payment and clarification of OMB’s authority to require
agencies to track programs under the IPIA with low error rates (i.e., less than
2.5 percent), but significant improper payment amounts.

SSA issues billions of dollars in benefit payments under the Old-Age, Survivors and
Disability Insurance (OASDI) and Supplemental Security Income (SSI) programs—and
some improper payments are unavoidable. In FY 2007, SSA issued over $612 billion in
benefit payments to over 54 million people. Since SSA is responsible for issuing timely
benefit payments for complex entitlement programs to millions of people, even the
slightest error in the overall process can result in millions of dollars in over- or
underpayments.

In January 2007, OMB issued a report, Improving the Accuracy and Integrity of Federal
Payments, noting that eight Federal programs—including SSA’s OASDI and SSI
programs—accounted for more than 89 percent of the improper payments in FY 2006.
However, this report also noted that the OASDI error rate dropped by 1/10th of
1 percent, which resulted in a $401 million reduction in improper payments.




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                         6
In August 2007, we issued a report, Improper Payments Resulting from the Annual
Earnings Test, that showed that SSA did not adjust the benefit payments for all
beneficiaries who were subject to the Annual Earnings Test. We estimated SSA
overpaid about $313 million to 89,300 beneficiaries and underpaid about $35 million to
12,800 beneficiaries. These payment errors primarily occurred because SSA did not
process all records identified by its Earnings Enforcement Operation (EEO).
Furthermore, unless SSA takes corrective action to process all future EEO selections,
we estimated it would pay at least $104 million in overpayments and $11 million in
underpayments annually.

SSA Has Taken Steps to Address this Challenge
SSA has been working to improve its ability to prevent over- and underpayments by
obtaining beneficiary information from independent sources sooner and using
technology more effectively. For example, the Agency is continuing its efforts to prevent
payments after a beneficiary dies by using Electronic Death Registration information.
Also, the Agency's Continuing Disability Review process is in place to identify and
prevent beneficiaries who are no longer disabled from receiving payments.

SSA is also taking steps to recover overpayments. For example, the Agency generally
agreed to the recommendations to improve its efforts for cross-program recovery of
overpayments that were in our June 2007 report, Cross-Program Recovery of Benefit
Overpayments. For the records we reviewed, we estimated SSA could collect a
maximum of about $3.6 million over a 21-month period from SSI payments to recover
OASDI overpayments. The amounts recovered could also earn about $149,000 in
interest for the OASDI trust funds over the 21-month period. In addition, we estimated
that over the 21-month period, SSA could recover a maximum of about $13.4 million in
SSI overpayments. In September 2007, SSA implemented Cross Program Recovery III,
which collects OASDI overpayments from SSI underpayments. SSA reported that the
new program provided for the collection of over $4 million in its first month of
implementation.

We will continue to work with SSA to identify and address improper payments in its
programs. For example, in our review, Title II Disability Insurance Benefits with a
Workers’ Compensation Offset (issued in November 2006), we found that the
percentage of payments in error identified in this report declined significantly when
compared to the percentage we reported in our prior workers’ compensation offset
audits. However, although there has been an improvement in reducing improper
payments due to workers’ compensation, we still identified about 25,377 disability
insurance claims totaling approximately $149 million that had payment errors. SSA
agreed to implement the five recommendations we made regarding this workload.




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                        7
 Internal Control Environment and Performance Measures
Sound management of public programs includes both effective internal controls and
performance measurement. Internal control comprises the plans, methods, and
procedures used to meet missions, goals, and objectives. OMB’s Circular No. A-123,
Management’s Responsibility for Management Control, requires the Agency and its
managers to take systematic and proactive measures to develop and implement
appropriate, cost-effective internal control for results-oriented management.
Accordingly, SSA management is responsible for determining through performance
measurement and systematic analysis if the programs it manages achieve intended
objectives.

Establishing appropriate controls over the development of disability claims under the DI
and SSI programs is one of the main work processes for which SSA is responsible.
Disability determinations under DI and SSI are required to be performed by DDSs in
each State in accordance with Federal regulations. Each DDS is responsible for
determining claimants’ disabilities and ensuring adequate evidence is available to
support its determinations. SSA reimburses the DDS for 100 percent of allowable
expenditures up to its approved funding authorization. In FY 2007, SSA allocated over
$1.7 billion to fund DDS operations.

From FY 2000 through FY 2007, we conducted 61 DDS administrative cost audits. In
32 of the 61 audits, we identified internal control weaknesses and over $110 million that
SSA reimbursed to the States that were not properly supported or could have been put
to better use. Fourteen of the 61 audits conducted were completed in FY 2007. Six of
these reports noted similar control weaknesses identified in DDS audits in previous
years and over $28 million of questioned costs and/or funds that could be put to better
use. We believe the large dollar amounts claimed by State DDSs and the control issues
we have identified, warrant this issue remaining a major management challenge.

Another area that requires sound management and effective internal control is the
selection and oversight of contractors assisting the Agency in meeting its mission. In
FY 2007, SSA spent over $715 million on contracts. We reviewed 11 of SSA’s
contracts in FY 2007. We generally found that the costs claimed for services provided
by the contractors involved were reasonable and allowable. While we noted no major
concerns in the reviews conducted, we believe ensuring proper oversight and controls
over its contracts is inherently a major management challenge for SSA due to the total
dollar amounts awarded and risks involved with contractors adequately delivering
services and meeting contract objectives.

The Government Performance and Results Act of 1993 (Pub. L. No. 103-62) and the
PMA call for the identification of outcome measures that accurately monitor programs’
performance. Also, SSA managers need sound information to monitor and evaluate
performance. In FY 2007, we issued 7 audits that addressed 14 of SSA’s performance




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                        8
    measures. Four of the seven audits were based on work that began in FY 2006, with
    audit work continuing into FY 2007. The nine performance measures addressed in
    these four reports are listed below.

•     Increase the Usage of Electronic           •   Increase the Percent of Employee
      Entitlement and Supporting Actions             Reports (W-2 forms) Filed Electronically
•     Agency Decisional Accuracy Rate            •   Number of SSA Hearings Processed
•     Average Processing Time for Hearings       •   Average Processing Time for SSA
      Appeals                                        Hearings
•     Disability Determination Services          •   Average Processing Time for Initial
      Cases Processed per Workyear                   Disability Claims
•     Number of Initial Disability Claims
      Processed by the Disability
      Determination Services

    We concluded the data used for five of the nine measures were reliable and that the
    data used for four of them were unreliable.

    Three of the seven audits released in FY 2007 were based on work that began and was
    completed in FY 2007. The five performance measures addressed by these audits are
    listed below.

•     Percent of Individuals Who Do              •   Percent of Old-Age, Survivors, and
      Business with SSA Rating the Overall           Disability Insurance Payments Free of
      Service as “Excellent,” “Very Good,” or        Overpayment and Underpayment
      “Good”
•     Minimize Skill and Knowledge Gaps in       •   Continue to Achieve 2 Percent
      Mission-Critical Positions                     Productivity Improvement on Average
•     Align Employee Performance with
      Agency Mission and Strategic Goals

    We concluded that the data used for four of the five measures were reliable and that the
    data used for one of them was unreliable.

    Generally, when data was determined to be unreliable, it was due to weaknesses in
    internal or access controls over the systems used to collect and process it. Due to the
    control weaknesses, the data was not sufficiently secure to be certain of its integrity.
    The challenge SSA faces in this area is ensuring that it has reliable management
    information when making strategic and operational plans.

    SSA Has Taken Steps to Address this Challenge
    SSA has taken steps to develop internal controls over its operations and contractor
    performance and in developing sound performance data. SSA has generally agreed
    with our recommendations that address internal control weaknesses associated with
    DDSs and has taken the recommended steps to ensure that reimbursements provided


    IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                          9
to DDSs are allowable and properly supported. Additionally, SSA is working to limit the
number of employees that have access and the ability to change data in its performance
data collection systems to help ensure the integrity of its management information.
Also, the Agency has worked with us to determine what is the best way to audit its
performance data without significantly increasing its data storage costs. This effort
includes gaining real time access to SSA’s performance data, which allows us to test
the data as it is being created.




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                   10
   Systems Security and Critical Infrastructure Protection
Protecting the critical infrastructure of the United States is essential to the Nation’s
security, public health and safety, economic vitality, and way of life. Attacks on critical
infrastructure could significantly disrupt the functioning of Government and business
alike and produce cascading effects far beyond the targeted sectors and physical
location of the incident. Therefore, any disruptions in the operation of information
systems that are critical to the Nation’s infrastructure should be infrequent, manageable,
of minimal duration and result in the least damage possible. The Government must
make continuous efforts to secure information systems for critical infrastructures.

SSA’s information security challenge is to understand and mitigate system
vulnerabilities. Weaknesses in controls over access to its electronic information,
technical security configuration standards, suitability, and continuity of systems
operations have been identified. While many of these weaknesses have been resolved,
SSA needs to monitor these issues diligently to ensure that they do not reoccur.

OMB continues to stress the importance of protecting the public’s privacy and PII as
emphasized by new guidance such as OMB Memorandum M-07-16, Safeguarding
Against and Responding to the Breach of Personally Identifiable Information. This new
guidance mandates agencies increase efforts to reduce the use of PII collected and
held. OMB Memorandum M-07-16 complements existing PII guidance including OMB
Memorandum M-06-15, Safeguarding Personally Identifiable Information, and OMB
Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information
and Incorporating the Cost for Security in Agency Information Technology Investments.
OMB is also incorporating more privacy and PII protection questions in its annual
Federal Information Security Management Act (FISMA) (Pub. L. No. 107-347, Title III)
guidance (OMB Memorandum M-07-19).

SSA Has Taken Steps to Address this Challenge
SSA has taken numerous steps to address OMB guidance on PII. In September 2006,
the Agency released, Policy and Procedures for All SSA Employees for Reporting the
Loss or Suspected Loss of Personally Identifiable Information (Information Systems
Security Handbook, Appendix V). This policy requires the reporting of incidents
involving the loss or potential loss of PII within 1 hour of discovery. In March 2007, the
Agency issued procedures on safeguarding PII while in transit or outside of secure SSA
space. In September 2007, SSA issued the, SSA Breach Notification Policy, The Social
Security Administration’s Implementation Plan To Eliminate Unnecessary Use Of Social
Security Numbers, and The Social Security Administration’s Plan and Progress Update
on Review and Reduction of Holdings of Personally Identifiable Information (PII). The
Agency has also established workgroups, a PII Executive Steering Committee, which
provides oversight and recommendations on SSA policy, and the PII Breach Response
Group whose role is to engage in Agency planning in the event a breach occurs.




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                       11
SSA addresses significant information technology control issues in many other ways.
For example, the Agency developed and implemented configuration standards for all
major operating system platforms and software components. SSA also began an
extensive monitoring process to ensure that the Agency’s over 100,000 servers and
workstations are in compliance with established system configuration standards.
Further, SSA maintained Certifications and Accreditations for all 20 major systems,
which were substantially compliant with security standards. SSA has instituted access
control policies to ensure appropriate segregation of duties by limiting access to critical
information on a ‘need only’ basis.

Over the years, SSA has worked to establish sufficient access controls as evidenced by
the use of Top Secret software and the System Security Profile Project (SSPP). An
employee’s profile is the primary element used to control access to SSA’s databases.
As a result of the SSPP, in FY 2005, the access control issue was removed as a
reportable condition from SSA auditor’s financial statement report. SSA needs to
continue its efforts to fully implement the policies that control access to sensitive
records. Such efforts should include:

   •   Updating and developing new configuration standards when appropriate;

   •   Strengthening its access control processes to ensure that the user profiles are
       adequately reviewed and tested;

   •   Continuing to monitor the Agency’s devices for compliance with established
       configuration standards;

   •   Continuing to work the SSPP and the regular monitoring of accesses made to
       sensitive data; and

   •   Controlling and monitoring DDS employees and contractors’ access to sensitive
       SSA information.

SSA has implemented a variety of methods to protect its critical information
infrastructure and systems security. For example, SSA’s Critical Infrastructure
Protection workgroup continuously looks to find ways to ensure Agency compliance with
various directives, such as Homeland Security Presidential Directives and FISMA. To
provide for the protection of the critical assets of the SSA National Computer Center,
SSA has initiated the Information Technology Operations Assurance (ITOA) project.
The objective of the ITOA project is to build a second, fully functional, co-processing
data center. SSA also routinely releases security advisories to its employees and has
hired outside contractors to provide expertise in this area.




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                        12
            Service Delivery and Electronic Government
One of SSA’s goals is to deliver high-quality “citizen-centered” service. This goal
encompasses traditional and electronic services to applicants for benefits, beneficiaries
and the general public. It includes services to and from States, other agencies, third
parties, employers, and other organizations, including financial institutions and medical
providers. This area includes the challenges of the Representative Payee Process,
Medicare Prescription Drug Program, Managing Human Capital and Electronic
Government (e-Government).

When SSA determines a beneficiary cannot manage his or her benefits, SSA selects a
representative payee who must use the payments for the beneficiary’s interests. In
FY 2007, SSA reported there were approximately 5.3 million representative payees who
managed about $49.9 billion in annual benefit payments for approximately 7.1 million
beneficiaries in FY 2006. While representative payees provide a valuable service for
beneficiaries, SSA must provide appropriate safeguards to ensure its responsibilities
are met to the beneficiaries it serves.

In FY 2007, we identified several problematic conditions during our reviews of SSA’s
representative payee process. We found SSA’s procedures did not ensure new
representative payees were selected when the death of current payees occurred. We
were also unable to identify if SSA referred, as required, all misuse cases to the OIG.
Furthermore, SSA did not always use its authority to redirect benefit payments to the
local field office when representative payees failed to submit annual accounting reports.
Finally, in July 2007, the National Academy of Sciences (NAS) issued a report,
Improving the Social Security Representative Payee Program: Serving Beneficiaries
and Minimizing Misuse, that contained several recommendations to improve SSA’s
representative payee program. For example, NAS reported that SSA should take steps
to prevent and detect misuse of beneficiary funds in a better way. In addition, NAS
recommended that SSA conduct targeted reviews of those representative payees most
likely to misuse benefits.

The Medicare Prescription Drug, Improvement and Modernization Act of 2003
(Pub. L. No. 108-173) established a new, voluntary Prescription Drug Program that
became effective January 2006. Under this program, certain low-income individuals are
eligible to receive prescription drug coverage, premium, deductible, and co-payment
subsidies. Implementation of the program presented several challenges for SSA. For
example, SSA needed to conduct outreach efforts to promote the program, perform
income and resource verifications for individuals who applied for low-income subsidies
and review appeals for applicants who disputed SSA’s eligibility determinations.

As of January 2007, the GAO continued to identify strategic human capital management
on its list of high-risk Federal programs and operations. Further, Strategic Management
of Human Capital is one of five governmentwide initiatives contained in the PMA. By




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                      13
the end of 2012, SSA projects its DI rolls will have increased by 35 percent. Further, by
FY 2015, 54 percent of current SSA employees will be eligible to retire. This could
result in a loss of institutional knowledge that will affect SSA’s ability to deliver quality
service to the public.

SSA faces numerous challenges in its attempts to provide eServices to the public,
Government and business. For example, SSA is facing increased workloads as “baby
boomers” become eligible for retirement and as the disability beneficiary population
grows. At the same time, there is a greater need for prompt, secure, and efficient
Government Internet services. We believe SSA needs to increase its efforts to
encourage claimants to file claims via the Internet Social Security Benefit Application
(ISBA). The percentage of claims filed through the Internet has remained at about 3 to
5 percent over the previous 5 years. Furthermore, about 73 percent of claimants who
file electronically for retirement or disability benefits over ISBA still have to be contacted
by SSA’s field offices before processing can be completed.

SSA Has Taken Steps to Address this Challenge
SSA has taken several actions to address the challenges of its representative payee
process. This includes providing periodic reports mandated by Congress under the
Social Security Protection Act of 2004 on its representative payee site reviews and
other reviews. SSA has also established a Representative Payment Steering
Committee to address the NAS conclusions and recommendations and planned
enhancements to its information systems for the issuance of alerts to field offices to
select a new representative payee when SSA is notified of a payee’s death.

To manage the challenges presented by the Medicare Prescription Drug Program, SSA
conducted more than 75,000 outreach events across the country to promote the
program. Based on income and resource verifications performed as of February 2007,
SSA approved low income subsidies to about 2.1 million applicants and denied low
income subsidies to about 2.5 million applicants. SSA created a Subsidy Appeals Unit
to process appeals of its subsidy eligibility determinations and continues to perform
periodic redeterminations of subsidy eligibility.

Since June 2004, SSA has consistently scored "green" in both “Current Status” and
“Progress in Implementing the PMA,” for Human Capital on the Executive Branch
Management Scorecard. The scorecard tracks how well the departments and major
agencies are executing the governmentwide management initiatives. SSA has taken
various actions to address its human capital challenges. In the Agency’s FY 2006
Annual Human Capital Accountability Report, SSA reported it developed an Office of
Personnel Management certified Human Capital Accountability System and Operating
Plan. In addition, SSA reported it instituted changes in its organizational structure to
expedite service to the public.

E-Government is a cornerstone of the PMA. SSA is incorporating this Presidential
initiative into its process by promoting convenient, quality on-line services. SSA is


IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                          14
currently using the Web to provide services through its Homepage. ISBA has
consistently rated at the top of all Federal offerings by the American Customer
Satisfaction Index Scorecard. In FY 2007, SSA reported a 292 percent increase over
the FY 2004 baseline in the use of electronic entitlement and supporting actions during
FY 2006. One of the more recent users of SSA’s electronic services was the Nation’s
first “baby boomer,” who filed for retirement benefits on-line.




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                     15
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Office of the Inspector General Contacts




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)
                                                                     Appendix A

Acronyms

 ALJ              Administrative Law Judge
 CDI              Cooperative Disability Investigations
 DDS              Disability Determination Services
 DHS              Department of Homeland Security
 DI               Disability Insurance
 EEO              Earnings Enforcement Operation
 ESF              Earnings Suspense File
 FISMA            Federal Information Security Management Act
 FY               Fiscal Year
 GAO              Government Accountability Office
 IPIA             Improper Payments Information Act
 IRTPA            Intelligence Reform and Terrorism Prevention Act
 ISBA             Internet Social Security Benefit Application
 ITOA             Information Technology Operations Assurance
 NAS              National Academy of Sciences
 OASDI            Old-Age, Survivors and Disability Insurance
 ODAR             Office of Disability Adjudication and Review
 OIG              Office of the Inspector General
 OMB              Office of Management and Budget
 PII              Personally Identifiable Information
 PMA              President’s Management Agenda
 QDD              Quick Disability Determination
 SSA              Social Security Administration
 SSI              Supplemental Security Income
 SSN              Social Security Number
 SSNVS            Social Security Number Verification Service
 SSPP             Standardized Security Profile Project



IG Statement on SSA’s Major Management Challenges (A-02-08-18061)
                                                                       Appendix B

  Related Office of the Inspector General Reports
    Management Challenge Area, Report Title and                              Report
          Common Identification Number                                       Issued
                         Social Security Number Protection

Effectiveness of the Single Select Edit Routine (A-03-07-17065)        September 28, 2007

The Validity of Earnings Posted to the Social Security
Administration’s Master Earnings File for Children Ages 7 through 13   September 28, 2007
(A-02-06-26051)

Social Security Numbers Assigned to Citizens of Compact of Free
                                                                       September 24, 2007
Association Countries (Limited Distribution) (A-08-07-17077)

Assessment of F-1 Students’ Use of Social Security Numbers
                                                                       September 12, 2007
(A-08-07-17085)

State and Local Governments’ Collection and Use of Social Security
                                                                       September 10, 2007
Numbers (A-08-07-17086)

Controls Over Employee Verification Programs (A-03-06-15036)           September 4, 2007

Overstated Earnings and Their Effect on Social Security
                                                                       August 7, 2007
Administration Programs (A-03-05-25018)
Assignment of Social Security Numbers to J-1 Exchange Visitors
                                                                       July 20, 2007
(A-08-07-17076)

Field Office Use of the SS-5 Assistant (A-04-07-17026)                 July 2, 2007

Original Social Security Numbers Assigned to U.S. Citizens Age 12
                                                                       June 18, 2007
or Older (A-08-07-17043)

The Las Vegas Social Security Card Center (A-09-06-16101)              February 8, 2007

Impact of Unauthorized Employment on Social Security Benefits
                                                                       December 21, 2006
(A-14-05-14042)

Congressional Response Report: Accuracy of the Social Security
                                                                       December 18, 2006
Administration’s Numident File (A-08-06-26100)




  IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                     B-1
    Management Challenge Area, Report Title and                              Report
          Common Identification Number                                       Issued
                         Social Security Number Protection
Congressional Response Report: Employer Feedback on the Social
                                                                        December 14, 2006
Security Administration's Verification Programs (A-03-06-26106)

Effectiveness of the Young Children's Earnings Records
                                                                        October 20, 2006
Reinstatement Process (A-03-05-25009)

    Management Challenge Area, Report Title and                              Report
          Common Identification Number                                       Issued
                      Management of the Disability Process
Claimant Representatives Barred from Practicing before the Social
                                                                        September 28, 2007
Security Administration (A-12-07-17057)
Disability Insurance Beneficiaries Convicted of Crimes Against the
                                                                        September 24, 2007
Social Security Administration’s Programs (A-06-06-16132)

Workload Activity at Five Hearing Offices in Region IV
                                                                        September 10, 2007
(A-12-07-27091)

Quick Disability Determinations (A-01-07-17035)                         May 31, 2007

Organizational Review of the Office of Disability and Income Security
                                                                        May 16, 2007
Programs (A-12-07-27162)

Management’s Use of Workload Status Reports at Hearing Offices
                                                                        March 26, 2007
(A-12-06-26130)

Impact of Statutory Benefit Continuation on Disability Insurance
Benefit Payments Made During the Appeals Process                        December 21, 2006
(A-07-05-15094)

Childhood Continuing Disability Reviews and Age 18
                                                                        December 20, 2006
Redeterminations (A-01-06-21093)

Title II Disability Insurance Benefits with a Workers' Compensation
                                                                        November 22, 2006
Offset (A-04-05-15133)




  IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                    B-2
     Management Challenge Area, Report Title and                            Report
           Common Identification Number                                     Issued
              Improper Payments and Recovery of Overpayments

Administrative Finality in the Old-Age, Survivors and Disability
                                                                      September 24, 2007
Insurance Program (A-01-07-27029)

Improper Payments Resulting from the Annual Earnings Test
                                                                      August 31, 2007
(A-09-07-17066)

Underpayments on Prior Supplemental Security Income Records
                                                                      August 31, 2007
(A-07-07-17034)
Controls over Survivor's Benefits When Indications Exist a Wage
                                                                      August 8, 2007
Earner is Alive (A-06-06-16088)
The Social Security Administration's Monitoring of Dedicated
Accounts for Supplemental Security Income Recipients                  August 3, 2007
(A-13-06-16032)

Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)        June 22, 2007

The Social Security Administration's Controls and Procedures over
                                                                      May 31, 2007
Supplemental Security Income Death Alerts (A-09-06-16128)

FECA: A Nationwide Review of Federal Employees Who Received
Compensation for Lost Wages for Periods When "Earned Wages"
                                                                      May 18, 2007
Were Reported on the Social Security Administration's Master
Earnings File (A-15-06-16037)
Adjustment of Widow’s Insurance Benefits at Full Retirement Age
                                                                      May 14, 2007
(A-01-07-27122)

Supplemental Security Income Recipients Eligible as Disabled Adult
Children Under the Old-Age, Survivors and Disability Insurance        April 30, 2007
Program (A-13-07-17073)

Accountability over Duplicate Payments, Equipment and Records in
                                                                      April 23, 2007
the Hurricane Recovery Area (A-06-06-26137)

Supplemental Security Income Payments Mailed to Field Office
                                                                      April 23, 2007
Addresses (A-06-06-26140)

The Social Security Administration’s Accountability of Federal
Emergency Management Agency Funds Provided for Hurricane              March 23, 2007
Relief Efforts (A-06-06-26138)



  IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                    B-3
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
              Improper Payments and Recovery of Overpayments

Direct Deposits for Multiple Title XVI Recipients into the Same Bank
                                                                       March 23, 2007
Account (A-02-06-25141)

The Social Security Administration's Collection of Court-ordered
                                                                       March 2, 2007
Restitution (A-02-06-26019)

Government Pension Offset Exemption for Texas School Districts'
                                                                       January 8, 2007
Employees (A-09-06-26086)

Title II Beneficiaries in England (A-01-06-26131)                      December 11, 2006

Supplemental Security Income Recipients Whose Medicare Benefits
                                                                       November 14, 2006
Were Terminated Due to Death (A-01-06-26105)




  IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                    B-4
     Management Challenge Area, Report Title and                            Report
           Common Identification Number                                     Issued
          Internal Control Environment and Performance Measures
Follow-Up Audit: Indirect Costs for the Connecticut Disability
Determination Services for the Period July 1, 2003 through June 30,    September 28, 2007
2005 (A-15-07-16034)

Management Advisory Report: Single Audit of the State of Arizona
                                                                       September 24, 2007
for the Fiscal Year Ended June 30, 2006 (A-77-07-00013)

Management Advisory Report: Single Audit of the Commonwealth of
Pennsylvania for the Fiscal Year Ended June 30, 2006                   September 24, 2007
(A-77-07-00012)
Performance Indicator Audit: Staff Skills and Productivity
                                                                       September 24, 2007
(A-02-07-17127)

Contract with I. Levy and Associates for Development and
Implementation of the Electronic Folder Interface at Disability        September 24, 2007
Determination Services (A-07-07-17104)

Performance Indicator Audit: Customer Satisfaction (A-15-07-17129) September 24, 2007

Management Advisory Report: Adequacy of the Administrative
Practices in the Atlanta North Office of Disability Adjudication and   September 5, 2007
Review (Limited Distribution) (A-04-07-27153)
Management Advisory Report: Defense Contract Audit Agency's
Audit of Lockheed Martin Services, Inc., Incurred Costs for Calendar
                                                                       August 31, 2007
Year Ending December 31, 2005 (Limited Distribution)
(A-15-08-28046)

Performance Indicator Audit: Improper Payments (A-15-07-17128)         August 31, 2007

Administrative Costs Claimed by the New Jersey Department of
                                                                       August 3, 2007
Labor, Division of Disability Determination Services (A-02-06-16043)

Administrative Costs Claimed by the California Disability
                                                                       July 31, 2007
Determination Services (A-09-06-16129)

Administrative Costs Claimed by the Missouri Disability
                                                                       July 12, 2007
Determination Services (A-07-06-16098)

Administrative Costs Claimed by the West Virginia Disability
                                                                       June 27, 2007
Determination Services (A-13-06-16121)



  IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                     B-5
    Management Challenge Area, Report Title and                                Report
          Common Identification Number                                         Issued
          Internal Control Environment and Performance Measures

Contract with Riojas Enterprises, Incorporated, for Case Folder Filing
                                                                         June 19, 2007
Support Services - Contract #0600-98-34420 (A-04-07-17027)

Administrative Costs Claimed by the New York Division of Disability
                                                                         June 11, 2007
Determinations (A-02-07-17046)
Performance Review of the Social Security Administration's National
Computer Center and Security West Building Guard Service Contract May 31, 2007
(Limited Distribution) (A-15-06-16139)
Administrative Costs Claimed by the Idaho Disability Determination
                                                                         May 30, 2007
Services (A-09-06-16120)

Contract for the Migration of I. Levy Software at Disability
                                                                         May 24, 2007
Determination Services (Limited Distribution) (A-07-07-17033)

Administrative Costs Claimed by the Illinois Disability Determination
                                                                         May 22, 2007
Services (A-05-06-16118)

Administrative Costs Claimed by the Mississippi Disability
                                                                         May 18, 2007
Determination Services (A-08-06-16125)

Performance Indicator Audit: Hearings and Appeals Process
                                                                         May 17, 2007
(A-15-06-16113)

Performance Indicator Audit: Disability Determination Services
                                                                         May 8, 2007
Processing (A-02-06-16110)

The Social Security Administration's Oversight of the PSI Group, Inc.,
Presort Mail Contract -- Contract # GS-25F-0010M (Limited              April 24, 2007
Distribution) (A-15-07-17032)

The Social Security Administration's Compliance with Employee Tax
                                                                         April 6, 2007
Requirements (A-03-06-16062)

Administrative Costs Claimed by the Tennessee Disability
                                                                         March 30, 2007
Determination Services (A-04-06-16053)

Defense Contract Audit Agency’s Audit of Lockheed Martin Services,
Inc. Incurred Costs for Calendar Year Ending December 31, 2004           March 30, 2007
(Limited Distribution) (A-15-07-27117)




  IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                      B-6
    Management Challenge Area, Report Title and                              Report
          Common Identification Number                                       Issued

          Internal Control Environment and Performance Measures

Management Advisory Report: Single Audit of the Puerto Rico
Department of the Family for the Fiscal Year Ended June 30, 2003        March 30, 2007
(A-77-07-00010)

Administrative Costs Claimed by the Commonwealth of Puerto Rico
                                                                        March 26, 2007
Disability Determination Program (A-06-06-16117)

Administrative Costs Claimed by the Florida Division of Disability
                                                                        March 23, 2007
Determinations (A-15-06-16127)

Management Advisory Report: Single Audit of the State of Illinois for
                                                                        March 23, 2007
the Fiscal Year Ended June 30, 2005 (A-77-07-00009)
Management Advisory Report: Single Audit of the State of
New Jersey for the Fiscal Year Ended June 30, 2005                      March 23, 2007
(A-77-07-00011)
Performance Indicator Audit: Claims Processing (A-15-06-16109)          March 16, 2007

Performance Indicator Audit: Electronic Service Delivery
                                                                        March 8, 2007
(A-15-06-16111)

Management Advisory Report: Single Audit of the Government of
the District of Columbia for the Fiscal Year Ended September 30,        February 27, 2007
2005 (A-77-07-00008)

Controls over Representative Payee Accounting of Social Security
                                                                        February 26, 2007
Funds (A-15-06-16065)

Administrative Costs Claimed by the Maryland Disability
                                                                        February 5, 2007
Determination Services (A-13-06-16029)
Management Advisory Report: Single Audit of the Hawaii
Department of Human Services for the Fiscal Year Ended June 30,         February 5, 2007
2005 (A-77-07-00007)
Contract for the Meridian Management Corporation at the Great
Lakes Program Service Center (Limited Distribution)                     January 29, 2007
(A-05-07-17058)




  IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                     B-7
    Management Challenge Area, Report Title and                            Report
          Common Identification Number                                     Issued

          Internal Control Environment and Performance Measures

Management Advisory Report: Single Audit of the State of
Washington for the Fiscal Year Ended June 30, 2005                    January 18, 2007
(A-77-07-00006)

MAXIMUS' Indirect Cost Rates for Fiscal Years 2002 and 2003
                                                                      December 21, 2006
(Limited Distribution) (A-15-06-16091)

Management Advisory Report: Single Audit of the State of South
                                                                      December 4, 2006
Carolina for the Fiscal Year Ended June 30, 2005 (A-77-07-00005)
Costs Claimed by the Association of University Centers on
Disabilities Contract Number 600-01-60127 (Limited Distribution)      December 1, 2006
(A-15-07-17031)
Management Advisory Report: Single Audit of the Commonwealth of
Pennsylvania for the Fiscal Year Ended June 30, 2005                  November 22, 2006
(A-77-07-00004)

Management Advisory Report: Single Audit of the State of New York
                                                                      November 22, 2006
for the Fiscal Year Ended March 31, 2005 (A-77-07-00003)

Social Security Administration's Financial Report for Fiscal Year
                                                                      November 7, 2006
2006 (A-15-06-16099)

Inspector General Statement on the Social Security Administration's
                                                                      November 3, 2006
Major Management Challenges (A-02-07-17075)

Administrative Costs Claimed by the Vermont Disability
                                                                      October 27, 2006
Determination Services (A-01-06-16041)

Management Advisory Report: Single Audit of the State of Maryland
                                                                      October 27, 2006
for the Fiscal Year Ended June 30, 2005 (A-77-07-00002)

Management Advisory Report: Single Audit of the State of Florida for
                                                                     October 27, 2006
the Fiscal Year Ended June 30, 2005 (A-77-07-00001)




  IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                 B-8
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
            Systems Security and Critical Infrastructure Protection

The Social Security Administration's Information Resources
                                                                       September 28, 2007
Management Strategic Plan (A-14-07-27133)

On-site Security Control and Audit Review at Hearing Offices
                                                                       September 28, 2007
(A-12-07-17080)
Access to Social Security Administration Data Provided by Disability
Determination Services Positional Profiles (Limited Distribution)      September 28, 2007
(A-14-07-17024)
Fiscal Year 2007 Evaluation of the Social Security Administration's
Compliance with the Federal Information Security Management Act        September 24, 2007
(A-14-07-17101)

Compliance with Onsite Security Control and Audit Review
                                                                       September 4, 2007
Requirements at Field Offices (A-02-07-27021)

The Social Security Administration's Incident Response and
                                                                       August 3, 2007
Reporting System (A-14-07-17070)
Social Security Administration's Management of Information
                                                                       July 26, 2007
Technology Projects (A-14-07-17099)

Social Security Administration's Progress in Implementing Homeland
                                                                       July 26, 2007
Security Presidential Directive 12 (A-14-07-27110)
The Social Security Administration's Information Technology
Maintenance and Local Area Network Relocation Contract                 May 21, 2007
(A-14-07-17022)
General Controls Review of the Florida Division of Disability
                                                                       January 10, 2007
Determinations Claims Processing System (A-14-06-16023)




  IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                     B-9
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
                  Service Delivery and Electronic Government
Payee Services, A Fee-for-Service Organizational Representative
Payee for the Social Security Administration (Limited Distribution)   September 24, 2007
(A-07-07-27150)

Management Advisory Report: Third Parties Applying for Medicare
Part D Low-Income Subsidies on Behalf of Others (Limited              September 5, 2007
Distribution) (A-08-07-27177)

An Individual Representative Payee for the Social Security
                                                                      July 3, 2007
Administration in the San Francisco Region (A-09-07-17063)

Phase 6 of the Social Security Administration's Special Disability
                                                                      May 18, 2007
Workload (A-13-07-27123)
Kansas Department of Social and Rehabilitation Services, an
Organizational Representative Payee for the Social Security           March 23, 2007
Administration (A-07-07-17045)
Follow-up: Analysis of Information Concerning Representative
                                                                      January 18, 2007
Payee Misuse of Beneficiaries' Payments (A-13-06-26097)

Follow up on the Social Security Administration's Procedures to
                                                                      October 27, 2006
Identify Representative Payees Who Are Deceased (A-01-06-16054)




  IG Statement on SSA’s Major Management Challenges (A-02-08-18061)                  B-10
                                                                      Appendix C

Office of the Inspector General Contacts

Walter Bayer, Director                        Social Security Number Protection
Kim Byrd, Director
Cylinda McCloud-Keal, Director

Mark Bailey, Director                         Management of the Disability Process

Rona Lawson, Director                         Improper Payments and Recovery of
Judith Oliveira, Director                     Overpayments

Tim Nee, Director                             Internal Control Environment and
Victoria Vetter, Director                     Performance Measures

Kitt Winter, Director                         Systems Security and Critical
                                              Infrastructure Protection

Jim Klein, Director                           Service Delivery and Electronic
Shirley Todd, Director                        Government



For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-02-08-18061.




IG Statement on SSA’s Major Management Challenges (A-02-08-18061)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
